     Department of Homeland Security




     FEMA Public Assistance Grant Funds Awarded to 

     South Florida Water Management District Under 

                    Hurricane Frances 





DA-12-26                                      August 2012

                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security
                                        Washington, DC 20528 / www.oig.dhs.gov


                                             AUG 2 7 2012

MEMORANDUM FOR:                        Major P. (Phil) May
                                       Regi    I Admi ·~rator, Region IV
                            ~~_              ra   Em~~an~ent Agency
FROM:                                  D.Mlch        ~d-      "-{
                                       Assista t Inspector General
                                       Office of Emergency Management Oversight

SUBJECT:                               FEMA Public Assistance Grant Funds Awarded to
                                       South Florida Water Management District Under
                                       Hurricane Frances
                                       FEMA Disaster Number 1545-DR-FL
                                       Audit Report Number DA-12-26

We audited Public Assistance (PAl grant funds awarded to the South Florida Water
Management District (District) (FIPS Code OOD-U03Cl-DO). OUf audit objective was to
determine whether the District accounted for and expended Federal Emergency
Management Agency (FEMA) grant funds according to Federal regulations and FEMA
guidelines.

As of November 10, 2011, the District had received a PA award of $13.4 million from the
                                     •
Florida Division of Emergency Management (State), a FEMA grantee, for damages
resulting from Hurricane Frances, which occurred in September 2004. The award
provided 100 percent FEMA funding for the first 72 hours of emergency protective
measures and debris removal activities, and 90 percent funding thereafter for these
activities. The award also provided 90 percent FEMAfunding for permanent repairs to
buildings, roads, and flood control facilities. The award included 17 large and 34 small
          1
projects.

We au dited 16 large projects and 18 small projects with awards totaling $13.2 million (see
Exhibit A, Schedule of Projects Audited). The audit covered the period September 4,
2004, to November 10, 2011, during which the District submitted claims totaling
$13.4 million. At the time of our audit, the District had completed work on all large
projects and had submitted final claims to the State for large project expenditures.




1   Federal regulations in effect at the time of Hurricane Frances set the large project threshold at $54,100.
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


We conducted this performance audit between October 2011 and June 2012 pursuant
to the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objective. We conducted this audit by applying the statutes, regulations, and
FEMA policies and guidelines in effect at the time of the disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed
District, State, and FEMA personnel; reviewed the District’s procurement policies and
procedures; reviewed applicable Federal regulations and FEMA guidelines; and
performed other procedures considered necessary under the circumstances to
accomplish our audit objective. We did not assess the adequacy of the District’s internal
controls applicable to its grant activities because it was not necessary to accomplish our
audit objective. However, we gained an understanding of the District’s method of
accounting for disaster-related costs and its policies and procedures for administering
activities provided for under the FEMA award.
                                                

                                                

                                     RESULTS OF AUDIT 


The District did not account for project expenditures on a project-by-project basis as
required by Federal regulations. We also determined that the District was awarded
$10,002,344 for repairs to flood control facilities that were ineligible for FEMA assistance,
which should be deobligated and put to better use. In addition, the District’s claim
included $185,359 of questioned costs that should be disallowed. This consisted of
$88,351 of ineligible small project costs, $61,462 of excess equipment costs, $20,086 of
ineligible repair costs, and $15,460 of unreasonable labor costs.

Finding A: Project Accounting

The District did not account for large projects on a project-by-project basis. According
to 44 CFR 13.20(a)(2), fiscal control and accounting procedures of a state and its
subgrantees must be sufficient to permit the tracing of funds to a level of expenditures
adequate to establish that such funds have not been used in violation of the restrictions
and prohibitions of applicable statutes. Further, 44 CFR 206.205(b) requires that large
project expenditures be accounted for on a project-by-project basis.

The District commingled disaster-related receipt and expenditure transactions with
nondisaster transactions in its general account, with no separate accounting establishing
project balances, receipts, or expenditures. As a result, total costs claimed for individual


www.oig.dhs.gov                                      2                               DA-12-26
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


projects could not be readily identified and traced to supporting documentation without
direct assistance from District officials.

District Response. District officials generally disagreed with this finding, saying that they
had purchase orders, invoices, and the like for the costs claimed. They also said that
they now have a system in place to capture grant costs as required by Federal
regulations and FEMA guidelines.

OIG Response. Although the District may have had accounting records for project costs,
it did not establish a separate accounting of costs for each project. As described in the
finding, we could not trace specific project costs to supporting documentation without
direct assistance from District officials.

Finding B: Ineligible Project Funding

The District received $10,002,344 of project funding for permanent repairs to flood
control facilities (canals, levees, locks and dams, etc.) that were not eligible for FEMA
public assistance. The facilities are under the U.S. Army Corps of Engineers’ (Corps)
Rehabilitation Inspection Program (RIP). The Corps requires that the District maintain
the facilities and determines when funding is necessary for repairs to facilities damaged
by floods, hurricanes, or storms. Federal regulations prohibit FEMA funding for facilities
that are covered under this program. Therefore, we question the $10,002,344, as
shown in table 1.

Federal regulation 44 CFR 206.226(a) states that generally disaster assistance will not be
made available under the RobertfT.fStaffordfDisasterfRelieffandfEmergencyfAssistancef
Act, as amended, when another Federal agency has specific authority to restore facilities
damaged or destroyed by an event that is declared a major disaster. In addition,
FEMA’s PublicfAssistancefGuide (FEMA 322, October 1999, pages 55–56) states that
federally funded flood control works are not eligible for FEMA funding. Finally, FEMA
Policy 9524.3 (Rehabilitation Assistance for Levees and Other Flood Control Works,
September 1996) prohibits emergency and permanent repairs to flood control facilities
under the RIP.

District officials said that, on the advice of FEMA officials, they sought funding from the
Corps for damages to the flood control facilities after the disaster occurred in
September 2004. According to District officials, the Corps denied the request because
there was no evidence of debris or siltation that decreased the channel’s hydraulic
capacity to 75 percent or less of preflood capacity. For two of the canals (C-23 and C-24),
District officials provided a denial letter from the Corps, dated February 2005. Further,
District officials said that FEMA advised them to apply for PA funding after being denied




www.oig.dhs.gov                                     3                               DA-12-26
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


funding from the Corps. However, neither the District nor the Corps could provide us
with the denial notifications regarding any other flood control facilities.

                Table 1. Ineligible Project Funding for Flood Control Facilities
       Project                                                                     Amount
       Number                             Work Location                            Awarded

   Large Projects:
        1444            Structure S-193 Locks and Dams - Lump sum contract            $90,907
        3345            Canal C-18 erosion repairs                                  2,290,000
        3347            Station 2, Cell 3 Levees - Lump sum contract                  216,000
        3350            Station 1W, Cell 4 & 5 Levees - Lump sum contract             226,000
        3918            Canal C-51 - Lump sum contract                                329,600
        5947            Canal C-17 - Cut and repair banks                             378,566
        6836            Canal C-24 West End - Lump sum contract                       728,000
        6852            Canal C-23                                                  3,690,510
        6888            L-64 & L-65 - Lump sum contract                               596,450
        6957            Canal C-25 - Lump sum contract                                649,542
        7241            Canal L-62 - Lump sum contract                                134,420
        7243            Canal C-59                                                    209,898
        7258            S-50 Control Structure - Time and material contract            72,230
        8438            Canals L-63S & L63N                                           279,102

    Small Projects:
        7252            S-49 Control Structure Area repairs                           54,080
        9190            S-65D Locks and Dam Area erosion repairs                      12,808
        9191            S-65E Locks and Dam Area erosion repairs                      32,664
        9192            S-65C Locks and Dam Area erosion repairs                      11,567

        Total                                                                  $10,002,344

On October 17, 2011 (the week before the start of our audit), FEMA Region IV officials
notified the District that the permanent repair projects were ineligible for FEMA
funding. However, instead of deobligating the funds at that time, FEMA requested that
we perform an independent analysis on the eligibility of the projects.

District Response. The District disagreed with the finding, saying that the regulations do
not specifically prohibit FEMA funding.

OIG Response. We disagree with the District. Both FEMA policy and Federal regulation
describe specific costs for activities that are not eligible for FEMA funding. The types of
costs we are questioning pertain to repairs that FEMA policy and guidelines clearly state
are ineligible for FEMA assistance.



www.oig.dhs.gov                                      4                                DA-12-26
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


Finding C: Small Project Funding

The District received $88,351 of ineligible FEMA funding for repairs to damaged facilities
under small projects. The funding was ineligible because either (1) the scope of work
had not been completed or (2) the damaged facilities were inactive at the time of the
disaster. Federal regulation 44 CFR 206.205(a) states that work under small projects
must be completed and that failure to complete the work may require that the Federal
payment be refunded. In addition, FEMA PublicfAssistancefGuide (FEMA 322, October
1999, page 20) states that a facility must be in active use at the time of the disaster and
that inactive facilities (facilities not being used at the time of the disaster) typically are
not eligible. Therefore, we question the $88,351, as shown in table 2.

      Table 2. Small Project Funding – Work Not Completed and Inactive Facilities
Project                                                                                 Amount
Number                          Damaged Facility / Description                         Questioned

Active Facilities – Work Not Completed:
 6817      Dupuis Reserve - Shed #3 metal roofing                                          $3,416
 6819      Dupuis Reserve - Shed #1 metal roofing                                           6,457

Inactive Facilities – Work Completed:
  9123     Lockett Estate site - Pump house, boathouse, and front yard items                  395
           (a portion of this project was not completed; see below)
  9135     Lockett Estate site - Main house and garage                                     11,489
  9143     Lockett Estate site - Barn and associated buildings repairs                      1,568

Inactive Facilities – Work Not Completed:
  9122     Lockett Estate site - Picnic pavilion roof repairs                              13,102
  9123     Lockett Estate site - Gazebo                                                     1,850
  9136     Lockett Estate site - Servant’s house, outbuilding, and grass huts               7,351
           repairs
  9166     Lockett Estate site – Caretaker’s Trailer repairs - Exterior and interior       19,723
           damages
  6803     Allapattah Ranch - Pole barn                                                     23,000
           Total                                                                          $ 88,351

District officials said that the projects were not completed because of competing
priorities. They also said that the inactive facilities were on land that is flooded
periodically for flood control purposes. Further, they disagreed that the Allapattah
Ranch (Project 6803) was an inactive facility. They said it was under lease and active at
the time of the disaster, but could not provide us with documentation to validate either
of their assertions.




www.oig.dhs.gov                                          5                              DA-12-26
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Finding D: Excess Equipment Costs

Under Projects 9338 and 9329, the District overstated its claim for generator use at two
water control facilities by $61,462. This occurred because of an error made when
applying the FEMA Schedule of Equipment rate. The District inadvertently applied a rate
of $266 per hour for the generators. However, the actual hourly FEMA rate for the
kilowatt capacity of the generators was $226. Federal regulation 44 CFR 206.228 (a)(1)
states that equipment rates used by the subgrantee for use of its own equipment must
not exceed FEMA’s established guidelines on eligible equipment rates. Using the
equipment rate hourly difference of $40, we question the $61,462 of excessive costs, as
shown in table 3.

                         Table 3. Ineligible Equipment Costs
                        Water Control       Hours     Excess Hourly         Questioned
        Project           Facility         Claimed       Charge               Costs
         9338              G372               989.50         $40.00            $39,580
         9338                S9               367.72          40.00             14,709
         9329              G372               113.00          40.00               4,520
         9329                S9                66.33          40.00               2,653
         Total                                                                 $61,462

Finding E: Ineligible Costs for Leased Property

The District’s claim included $20,086 for repairs to the Sunrise Groves facility, for which
it was not legally responsible. Federal regulation 44 CFR 206.223(a)(3) requires that an
item of work be the legal responsibility of the applicant to be eligible for FEMA
assistance.

At the time of the disaster, the Sunrise Groves facility was leased to a third party. As
part of the lease agreement, the lessee was required to maintain casualty insurance on
the property. The agreement also required the lessee to repair any damages to the
property. Therefore, as shown in table 4, we question the $20,086 of costs claimed for
repairs that were not the legal responsibility of the District.

District officials said that the cost of the repairs was most likely claimed because the
individual who wrote the project worksheets was not familiar with the insurance and
repair provisions in the lease agreement for the facility.




www.oig.dhs.gov                                     6                              DA-12-26
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                             Table 4: Ineligible Leased Property

    Project                           Sunrise Groves                                         Questioned
    Number                       Description of Damages                                         Cost
     9120     Pump Station roof repairs and two pump engines                                    $ 6,120
     9124     Fuel Tank roof repairs                                                              1,781
     9125     Equipment Shed roof repairs                                                         1,761
     9126     Main Steel Garage building repairs                                                  8,819
     9127     Back Garage shop and Caretaker’s House repairs                                      1,605
     Total                                                                                      $20,086


Finding F: Unreasonable Labor Costs

The District’s claim under Project 9338 included $15,460 of unreasonable force account
labor and fringe benefits charges. The District claimed a number of employees as having
worked 22.5 to 24 hours each day for several consecutive days. It is not reasonable for
a person to work so many hours for several consecutive days without an extended rest
period. Furthermore, the District claimed one employee as working 27.5 hours in 1 day.
According to 2 CFR Part 225, CostfPrinciplesfforfState,fLocal,fandfIndianfTribalf
Governments,fAppendix A, GeneralfPrinciplesfforfDeterminingfAllowablefCosts,2 costs
under Federal awards must be both reasonable and necessary. Further, FEMA policy
recognizes the need for a standard, reasonable amount of force account labor hours.
The year after this disaster, FEMA issued a revision to section VII.H of its Recovery Policy
9525.7, LaborfCostsf-fEmergencyfWork.3 The revision states,

         Reimbursement of labor costs for employees performing emergency work is
         limited to actual time worked, even when the applicant is contractually obligated
         to pay for 24 hour shifts. It is not reasonable for a person to work more than
         48 hours continuously without an extended rest period. Therefore, FEMA will
         reimburse up to 24 hours for each of the first two days, and up to 16 hours for
         each of the following days for emergency work. All requested hours must be for
         actual time worked.

Therefore, after the first 2 days of emergency work, we adjusted all of the employees’
eligible work hours to 16 hours per day (8 regular hours and 8 overtime hours), which
resulted in questioned costs of $15,460 ($13,101 labor and $2,359 fringe benefits).



2
  OMB Circular A-87, in effect at the time of the disaster, was relocated to 2 CFR Part 225, on 

August 31, 2005.

3
  Although the revised FEMA Policy 9525.7 was not in effect at the time of the disaster, we referred to this 

policy to establish a reasonable number of daily work hours. 



www.oig.dhs.gov                                              7                                    DA-12-26
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


District officials said that they were not aware of any limitations on claims for labor
hours. The District’s policy is to pay for overtime hours worked during an emergency,
and it does not limit the amount of overtime. The policy states that an employee’s
hours of work include all meals, breaks, and sleep time if the employee is required to
remain on duty during the emergency. Although the District pays its employees based
on District policies, FEMA policies limit reimbursement for eligible labor costs.


                                  RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

       Recommendation #1: Instruct the State to reemphasize to the District its need
       to account for FEMA project expenditures on a project-by-project basis as
       required by Federal regulations (44 CFR 206.205(b) and 44 CFR 13.20(a)(2))
       (finding A).

       Recommendation #2: Deobligate and put to better use $10,002,344 (Federal
       share $9,002,110) of ineligible project funding awarded under the flood control
       projects (finding B).

       Recommendation #3: Disallow $88,351 (Federal share $79,516) of costs claimed
       under the small projects for work not completed and for inactive facilities
       (finding C).

       Recommendation #4: Disallow $54,289 (Federal share $48,860) of excess
       equipment costs claimed under Project 9338 and $7,173 (Federal Share $7,173)
       under Project 9329 (finding D).

       Recommendation #5: Disallow $20,086 (Federal share $18,077) of ineligible
       costs claimed for damages that were not the legal responsibility of the District
       (finding E).

       Recommendation #6: Disallow $15,460 (Federal share $13,914) of unreasonable
       labor costs claimed under Project 9338 (finding F).


               DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with District, State, and FEMA officials during our
fieldwork. We also provided a draft report in advance to these officials and discussed it
at the exit conference held on June 27, 2012. District officials agreed with findings D, E,


www.oig.dhs.gov                                     8                              DA-12-26
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


and F, and partially agreed with finding C. However, District officials did not agree with
findings A and B. Their comments, where appropriate, are included in the body of the
report. FEMA and State officials withheld comments pending the receipt of the final
report.

Within 90 days of the date of this memorandum, please provide our office with a
written response that includes your (1) agreement or disagreement, (2) corrective
action plan, and (3) target completion date for each recommendation. Also, please
include responsible parties and any other supporting documentation necessary to
inform us about the current status of the recommendation. Until your response is
received and evaluated, the recommendations will be considered open and unresolved.

Consistent with our responsibility under the InspectorfGeneralfAct,fwe are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report were David Kimble, Eastern Region Audit Director;
Felipe Pubillones, Audit Manager; Helen White, Auditor-in-charge, Angelica Esquerdo,
Program Analyst; and Larry Jones, Auditor.

Please call me with any questions, or your staff may contact David Kimble, Eastern
Region Audit Director, at (404) 832-6702.




www.oig.dhs.gov                                    9                              DA-12-26
                       OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


                                                                             EXHIBIT A

                          Schedule of Projects Audited 

                   September 4, 2004, to November 10, 2011 

                  South Florida Water Management District, FL 

                      FEMA Disaster Number 1545-DR-FL


     Project        Amount       Amount      Funds Put to      Federal        Finding
     Number        Awarded      Questioned    Better Use        Share
      1444           $ 90,907                     $ 90,907         $81,816      B
      3345          2,290,000                    2,290,000       2,061,000      B
      3347            216,000                      216,000         194,400      B
      3350            226,000                      226,000         203,400      B
      3918            329,600                      329,600         296,640      B
      5947            378,566                      378,566         340,710      B
      6803             23,000     $ 23,000                          20,700      C
      6817              3,416        3,416                           3,074      C
      6819              6,457        6,457                          $5,811      C
      6836            728,000                        728,000       655,200      B
      6852          3,690,510                      3,690,510     3,321,459      B
      6888            596,450                        596,450       536,805      B
      6957            649,542                        649,542       584,588      B
      7241            134,420                        134,420       120,978      B
      7243            209,898                        209,898       188,908      B
      7252             54,080                         54,080        48,672      B
      7258             72,230                         72,230        65,007      B
      8438            279,102                        279,102       251,192      B
      9120              6,120        6,120                          $5,508      E
      9122             13,102       13,102                          11,792      C
      9123              2,245        2,245                           2,021      C
      9124              1,781        1,781                           1,603      E
      9125              1,761        1,761                           1,585      E
      9126              8,819        8,819                           7,937      E
      9127              1,605        1,605                           1,444      E
      9135             11,489       11,489                          10,340      C
      9136              7,351        7,351                           6,616      C
      9143              1,568        1,568                           1,411      C
      9166             19,723       19,723                          17,751      C
      9190             12,808                        12,808         11,527      B
      9191             32,664                        32,664         29,398      B
      9192             11,567                        11,567         10,410      B
      9329            333,332        7,173                           7,173      D
      9338          2,753,924       69,749                          62,774     D, F
      Total       $13,198,038     $185,359    $10,002,344       $9,169,650




www.oig.dhs.gov                               10                              DA-12-26
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


                                                                     EXHIBIT B 


                               Report Distribution List 

                    South Florida Water Management District, FL 

                        FEMA Disaster Number 1545-DR-FL 



Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS
Acting Chief Privacy Officer

Federal Emergency Management Agency

Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-12-002)

Grantee

Executive Director, Florida Division of Emergency Management

State

Deputy Inspector General, Florida Division of Emergency Management

Subgrantee

Finance Bureau Chief, South Florida Water Management District




www.oig.dhs.gov                               11                      DA-12-26
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
